CREED & GOWDY
AN APPELLATE LAW FIRM

865 May Street, Jacksonville, Florida 32204
Rebecca Bowen Creed*
Bryan S. Gowdy*
Meredith A. Ross
Dimitri A. Peteves
D. Gray Thomas*, of counsel
Thomas A. Burns*, of counsel

(904) 350 0075 Telephone
(904) 503 0441 Facsimile
www.appellate-firm.com

* Board Certified as Appellate Specialist by The Florida Bar

May 20, 2021
Submitted via The Supreme Court’s Electronic Filing System
The Honorable Scott. S. Harris, Clerk
United States Supreme Court
1 First Street, NE
Washington, D.C. 20543
Re:

Gianinna Gallardo v. Simone Marstiller, In Her Official Capacity as Secretary of the
Florida Agency for Health Care Administration, Case No. 20-1263
Response to Respondent’s Extension Request

Dear Mr. Harris:
Based on an already granted 45-day (unopposed) extension, the response in this matter is
due May 27, 2021. The petitioner, Ms. Gallardo, opposes respondent’s request, dated today, for an
additional 60-day extension, which, if granted, would allow the response to be filed on July 26,
2021. The petitioner opposes because, as a practical matter, the extension will prevent the Court
from considering the petition at a June conference and instead will compel consideration at the
September conference.
Petitioner believes that the Court would appreciate the opportunity to consider this petition
in June as it attempts to fill its calendar for the fall. The case involves a direct and acknowledged
conflict between the Eleventh Circuit and the Florida Supreme Court (and other state courts of last
resort) on an issue of federal Medicaid law that has repeatedly required the Court’s intervention to
resolve conflicts. If the extension is denied, then petitioner waives the 14-day waiting period so
the petition and any response may be promptly distributed on June 1st for the Court’s consideration
at its June 17th conference. See Sup. Ct. R. 15.5.
Respondent is the Florida Agency for Health Care Administration. It has ample resources
and has had abundant time to prepare a response. In the Eleventh Circuit, the agency was
represented by Gray Robinson, a private law firm with fifteen offices. In October 2020, petitioner
notified the agency that she intended to petition for certiorari, as the attached letter from the
agency’s private counsel indicates. In December 2020 and January 2021, the undersigned counsel
communicated multiple times with the agency’s private counsel—by phone and email—to discuss
whether the agency might acquiesce to the petition because it would be in the agency’s interest to

have the conflict between the Florida Supreme Court and the Eleventh Circuit resolved.
Ultimately, however, the agency did not commit to acquiescing, and the undersigned counsel
proceeded to draft the petition on the assumption it would be opposed. Though the deadline for
the petition was March 19, 2021, the petitioner filed it ten days earlier on March 9th, with the
expectation that, if the respondent obtained one 30-day extension, the Court would consider the
petition before its summer recess.
After the petition was filed, the agency’s in-house counsel notified the undersigned counsel
that the Florida Solicitor General would be representing the agency in this Court. The undersigned
counsel could not have assumed this representation because Florida sometimes retains private
counsel for matters in this Court. See, e.g., Florida v. Jardines, 569 U.S. 1 (2013). In mid-March,
the Florida Solicitor General’s office contacted the undersigned counsel and requested a 60-day
extension for the reasons stated in the respondent’s March 24th letter to this Court—that is the
office had “multiple pressing deadlines with limited staff assistance,” and the attorney handling
the matter, Kevin Golembiewski, was “just returning from parental leave” after the birth of a child.
In discussing this initial extension request with Mr. Golembiewski by phone, the undersigned
counsel stated that the petitioner wanted the petition considered at a June conference, and he sent
Mr. Golembiewski a detailed email outlining when the petition would be considered at conference
based on various response dates. As a result of these telephone and email communications, Mr.
Golembiewski wrote the undersigned counsel, “Our plan is to request a 45-day extension, rather
than 60, with an eye towards filing in time for the June conferences.” At no time during these
March discussions was there any mention of the possibility of a second extension request because
of imminent personnel changes in the Florida Solicitor General’s office.
The Florida Solicitor General’s office is part of the Florida Attorney General’s office, and
according to that office’s website, the “majority” of its 1300 employees are attorneys. The
respondent’s letter does not state that Mr. Golembiewski—the attorney handling this matter—is
leaving the Solicitor General’s office. It merely states that the Solicitor General “is leaving” the
Attorney General’s office—at some unspecified time—and that the Chief Deputy is “transitioning”
to a new position within the Attorney General’s office—also at some unspecified time.
Furthermore, the letter fails to specify when the new Solicitor General and Chief Deputy will begin
their employment or assume responsibility for this case.
For all these reasons, petitioner requests that the respondent’s extension request be denied.
If it is denied, petitioner waives the 14-day waiting period so the petition and any response may
be promptly distributed on June 1st for the Court’s consideration at its June 17th conference.
Respectfully Submitted,
s/Bryan S. Gowdy
Bryan S. Gowdy
Counsel of Record
cc: James H. Percival
Counsel of Record

2

301 S O U T H B R O N O U G H S T R E E T
S U IT E 600
P O ST O F F IC E B O X 11189 (32302-3189)
T AL L AH A S SE E , F LO R ID A 32301
T E L 850-577-9090
F A X 850-577-3311
gray-robinson.com

BOCA RATON
FORT LAUDERDALE
FORT MYERS
GAINESVILLE
JACKSONVILLE
KEY WEST
LAKELAND
MELBOURNE
MIAMI
NAPLES

October 30, 2020

ORLANDO
TALLAHASSEE
TAMPA
WASHINGTON, DC

Sent Via Email

WEST PALM BEACH

Bryan S. Gowdy
Creed & Gowdy, P.A.
865 May Street
Jacksonville, Florida 32204
bgowdy@appellate-firm.com
Re:

Gallardo Appeal

Dear Bryan:
I write to confirm our recent discussions.
It is my understanding that your client, Gianinna Gallardo, intends to petition the
United States Supreme Court to review the Eleventh Circuit’s decision in Gallardo v.
Dudek, 963 F.3d 1167 (11th Cir. 2020). It is also my understanding that the DOAH
proceeding initiated on Ms. Gallardo’s behalf pursuant to section 409.910(17)(b), Florida
Statutes, which the administrative law judge initially placed in abeyance when Ms.
Gallardo filed her federal-court action, was closed in December 2016 and has remained
closed ever since. See Gallardo v. State of Florida, Agency for Health Care Admin., No.
15-006960MTR (Fla. DOAH filed Dec. 8, 2015).
AHCA has authorized me to represent that it will not seek to reopen the DOAH
proceeding before the conclusion of certiorari proceedings in the United States Supreme
Court. AHCA does not waive any other rights and specifically reserves the right to
reopen the DOAH proceeding if Ms. Gallardo does not timely file a petition for writ of
certiorari, or upon conclusion of certiorari proceedings in the United States Supreme
Court. In light this agreement, your client has agreed not to seek to stay, recall, or
otherwise interrupt the efficacy of the Eleventh Circuit’s mandate. Your client has also
agreed, as Florida law requires, to maintain the third-party benefits at issue in these
proceedings in an interest-bearing trust account pending DOAH’s determination of
AHCA’s right to the benefits under section 409.910(17).

Please confirm your agreement, and thank you for your cooperation.
Sincerely,

dy Bardi
rd
uy

22

